September 2009
Report No. AUD-09-025


Material Loss Review of Corn Belt Bank
and Trust Company, Pittsfield, Illinois




            AUDIT REPORT
                                                  Report No. AUD-09-025                                                              September 2009

                                                  Material Loss Review of Corn Belt Bank and Trust
                                                  Company, Pittsfield, Illinois
                                                  Audit Results
     Federal Deposit Insurance Corporation


  Why We Did The Audit                            Causes of Failure and Material Loss - Corn Belt failed because bank management did not
                                                  implement sound risk management practices, particularly in the areas of loan underwriting and
  On February 13, 2009, the Illinois              credit administration, during a period of rapid growth in its loan portfolio from 2003 through 2005.
  Department of Financial and Professional        Corn Belt also failed to effectively manage key risks in its loan portfolio, including individual
  Regulation, Division of Banking (IDFPR)         credit concentrations and loans with high loan-to-value (LTV) ratios, or to implement an effective
  closed Corn Belt Bank and Trust Company         loan grading system and methodology for computing an adequate allowance for loan and lease
  (Corn Belt), Pittsfield, Illinois, and named    losses (ALLL). Further, Corn Belt relied heavily on non-core funding sources, especially brokered
  the FDIC as receiver. On March 4, 2009,         deposits, to fund growth in its loan portfolio without establishing adequate risk mitigation controls.
  the FDIC notified the Office of Inspector       FDIC and IDFPR examiners repeatedly expressed concern about Corn Belt’s high-risk practices in
  General (OIG) that Corn Belt’s total assets     these areas in the years leading up to its failure. However, the actions taken by Corn Belt’s Board
  at closing were $261.7 million and the          and management to address examiner concerns were not adequate. As economic conditions
  estimated loss to the Deposit Insurance
                                                  declined, the institution’s weak risk management practices resulted in significant asset
  Fund (DIF) was $100.7 million. As
  required by section 38(k) of the Federal
                                                  deterioration. Losses and additional ALLL provisions quickly depleted capital and earnings while
  Deposit Insurance (FDI) Act, the OIG            significantly impairing the institution’s liquidity position. Corn Belt was significantly
  conducted a material loss review of the         undercapitalized when it was closed.
  failure of Corn Belt.
                                                  Assessment of FDIC Supervision - The FDIC, in conjunction with IDFPR, provided ongoing
  The audit objectives were to (1) determine      supervision of Corn Belt through regular risk management examinations, visitations, and offsite
  the causes of the financial institution’s       monitoring. Examiners were actively engaged in overseeing the institution in the years before its
  failure and resulting material loss to the      failure and identified the key risks that ultimately caused Corn Belt to fail. Such risks included
  DIF and (2) evaluate the FDIC’s                 rapid loan growth without adequate underwriting and credit administration, excessive credit
  supervision of the institution, including       concentrations, loans with high LTV ratios, weak loan grading and ALLL practices, and heavy
  implementation of the Prompt Corrective         reliance on non-core funding sources. Examiners brought these risks to the attention of Corn
  Action (PCA) provisions of section 38.          Belt’s Board and management before the risks resulted in serious financial problems. The FDIC
                                                  and IDFPR also pursued both formal and informal corrective actions when other attempts to
  Background                                      address risks identified by examiners were unsuccessful.

                                                  While such actions were positive, we concluded that more proactive supervisory action may have
  Corn Belt was a state-chartered
  nonmember bank insured on October 25,           influenced Corn Belt’s Board and management to constrain its excessive risk taking and to take
  1946. With two branch offices and a small       more timely and effective action in response to examiner concerns. Specifically, the FDIC could
  trust department, Corn Belt was engaged         have required Corn Belt to hold a greater amount of capital or to submit a capital contingency plan
  principally in traditional banking activities   sooner than had been required in 2008 given the institution’s high-risk profile. In addition, the
  within its market place. Corn Belt was          FDIC could have pursued a formal enforcement action following the 2007 examination (rather than
  closely held by Corn Belt Bancorp, Inc., a      a second Memorandum of Understanding) as a result of the institution’s failure to adequately
  one-bank holding company, with no               address provisions in prior informal corrective actions. By the time the FDIC issued a formal
  subsidiaries or affiliates.                     enforcement action on December 31, 2008, Corn Belt’s failure was highly probable due to the
                                                  significant asset deterioration that had occurred and its impact on earnings, capital, and liquidity.
  Corn Belt’s assets consisted principally of
  farm loans, commercial real estate (CRE)        With respect to PCA, we concluded that the FDIC implemented the provisions of PCA consistent
  loans, and commercial and industrial (C&I)      with section 38 of the FDI Act. However, PCA was not effective in limiting losses to the DIF
  loans. Prior to 2005, Corn Belt was             because PCA did not result in action until the institution was at risk of failure.
  principally a farm lender, but as Corn Belt
  pursued a rapid growth strategy, CRE loans      This report presents the FDIC OIG’s analysis of Corn Belt’s failure and the FDIC’s efforts to
  increased the complexity of the loan            ensure Corn Belt’s management operated the bank in a safe and sound manner. We are not
  portfolio.                                      making recommendations. Instead, as major causes, trends, and common characteristics of
                                                  financial institution failures are identified in our reviews, we will communicate those to
  FDIC guidance describes a risk
                                                  management for its consideration. As resources allow, we may also conduct more in-depth
  management framework and practices to
  effectively identify, measure, monitor, and     reviews of specific aspects of the FDIC’s supervision program and make recommendations, as
  control risk to the safety and soundness of     warranted.
  an institution. The FDIC has issued
  specific guidance regarding industry and        Management Response
  individual concentrations of credit and
  concentrations in higher-risk CRE loans.        The Director, Division of Supervision and Consumer Protection (DSC), provided a written
  The guidance addresses effective oversight      response to the draft report. DSC summarized the OIG’s conclusions regarding the causes of Corn
  by bank management, including the board         Belt’s failure and the resulting material loss to the DIF and DSC’s supervisory activities related to
  of directors (Board), and sound loan            Corn Belt. DSC also acknowledged that higher capital requirements can be an effective
  underwriting, administration, and portfolio     supervisory tool and that it has provided further guidance to enhance the supervision of institutions
  management practices.                           with high levels of volatile non-core funding.


To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                  Page

BACKGROUND                                                                  2

CAUSES OF FAILURE AND MATERIAL LOSS                                         3
  Rapid Growth Without Adequate Risk Management                             3
     Loan Underwriting and Credit Administration                            4
     Credit Concentrations                                                  5
     Loans with High LTV Ratios                                             6
     Loan Grading and ALLL                                                  6
  Reliance on Non-Core Funding                                              7
  Attention to Examiners’ Concerns                                          9

ASSESSMENT OF FDIC SUPERVISION                                             12
  Historical Snapshot of FDIC Supervision                                  12
  OIG Assessment of FDIC Supervision                                       13
    Capital Adequacy                                                       13
    Informal and Formal Enforcement Actions                                14

IMPLEMENTATION OF PCA                                                      16
  Summary of Actions Taken Related to PCA                                  16

CORPORATION COMMENTS                                                       17


APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                    18
  2. GLOSSARY OF TERMS                                                     20
  3. CORPORATION COMMENTS                                                  21
  4. COMPARISON OF MOUs AND C&D ORDER                                      22
   5. ACRONYMS USED IN THE REPORT                                          24
TABLES
  1. Financial Condition of Corn Belt in the Years Prior to its Failure     2
  2. Summary of Credit Concentrations in Corn Belt’s Loan Portfolio         5
  3. Corn Belt’s Adversely Classified Assets and ALLL                       7
  4. On-Site Supervisory Efforts                                           13
  5. Corn Belt’s Total Risk-Based Capital                                  14
  6. Institution Practices Supporting Issuance of a C&D                    15
FIGURES
  1. Annual Growth of Corn Belt’s Loan Portfolio Relative to Peers’         4
     Growth
  2. Corn Belt’s Brokered Deposits Relative to Peers’ Brokered Deposits     8
    s
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     September 4, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Corn Belt Bank and Trust
                                          Company, Pittsfield, Illinois
                                          (Report No. AUD-09-025)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of Corn Belt
Bank and Trust Company (Corn Belt), Pittsfield, Illinois. The Illinois Department of
Financial and Professional Regulation, Division of Banking (IDFPR) closed Corn Belt on
February 13, 2009 and named the FDIC as receiver. On March 4, 2009, the FDIC
notified the OIG that Corn Belt’s total assets at closing were $261.7 million and that the
estimated loss to the Deposit Insurance Fund (DIF) was $100.7 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to: (1) determine the causes of Corn
Belt’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision2 of Corn Belt, including the FDIC’s implementation of the PCA provisions of
section 38 of the FDI Act. This report presents the FDIC OIG’s analysis of Corn Belt’s
failure and the FDIC’s efforts to ensure Corn Belt’s management operated the bank in a
safe and sound manner. We are not making recommendations. Instead, as major causes,
trends, and common characteristics of financial institution failures are identified in our
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    reviews, we will communicate those to management for its consideration. As resources
    allow, we may also conduct more in-depth reviews of specific aspects of the FDIC’s
    supervision program and make recommendations, as warranted. Appendix 1 contains
    details on our objectives, scope, and methodology; Appendix 2 contains a glossary of
    terms; Appendix 4 is a comparison of informal and formal action provisions; and
    Appendix 5 contains a list of acronyms used in the report.


BACKGROUND

    Established in 1946, Corn Belt was a state-chartered nonmember savings bank. The
    institution had three locations, consisting of a main office in Pittsfield, Illinois (located
    approximately 100 miles north of St. Louis, Missouri), and two full-service branches in
    Jacksonville, Illinois, and Clayton, Missouri. Corn Belt was controlled by a local family
    since 1973. The President and Chairman of Corn Belt, who was a member of this family,
    owned over 90 percent of the stock in Corn Belt Bancorp, Inc., a one-bank holding
    company that owned the institution, with no other subsidiaries or affiliates. Much of
    Corn Belt’s lending was in real estate, particularly farm loans in the swine industry and
    commercial real estate (CRE) loans, and construction and industrial (C&I) loans. In
    addition, the institution operated a small trust department. Table 1, below, summarizes
    key financial measures related to Corn Belt in the years prior to its failure.

    Table 1: Financial Condition of Corn Belt in the Years Prior to its Failure
    Financial Measure                    Dec-08    Dec-07      Dec-06     Dec-05      Dec-04     Dec-03
    Total Assets ($000s)               $260,201 $337,011 $314,722 $283,573 $186,004 $146,424
    Total Deposits ($000s)             $233,788 $284,950 $271,104 $239,025 $151,763 $127,374
    Total Loans ($000s)                $199,366 $268,676 $254,691 $233,568 $148,047 $114,438
    Net Loan Growth Rate                 -28.82%     5.23%       8.57%     57.98%     29.45%       17.90%
    Tier 1 Leverage Capital Ratio (%)        2.94      8.06        8.19       8.24        7.77        8.22
    Return on Assets (%)                    -5.79      0.76        1.33       1.52        1.91        1.80
    Loan Mix (% of Avg. Gross Loans)
    All Loans Secured by Real Estate      71.32%    68.08%      70.88%     74.11%     72.70%       70.73%
     Construction and Development          8.44%     4.01%       4.97%      2.46%       1.57%       1.75%
     CRE - Nonfarm/nonresidential         24.71%    24.78%      25.97%     25.57%     15.53%       14.12%
     Family Residential - with Home        9.45%    10.49%      12.35%     12.84%     15.12%       13.94%
      Equity and Multifamily Loans
     Farmland                             28.72%    28.79%      27.59%     33.23%     40.49%       40.93%
    C&I Loans                             22.94%    25.60%      23.37%     18.71%     17.18%       18.05%
    Funding
    Net Loans/Deposits                    80.31%    92.57%      92.46%     96.60%     96.30%      88.64%
    Core Deposits/Average Assets          36.44%    27.98%      23.90%     36.09%     53.37%       60.30%
    Brokered Deposits/Average Assets      42.62%    48.39%      54.95%     39.53%     19.46%       11.12%
    Examination Information
    Date of Examination                 09/29/08 11/26/07 12/11/06 12/12/05 08/02/04 07/14/03
    Component and Composite Ratings    555554/5 343333/3 233232/3 223232/2 222222/2 233222/3
    Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROE) for Corn Belt.




                                                    2
CAUSES OF FAILURE AND MATERIAL LOSS

      Corn Belt failed because its board of directors (Board) and management did not
      implement adequate risk management practices, particularly in the areas of loan
      underwriting and credit administration, during a period of rapid growth in its loan
      portfolio from 2003 through 2005. In particular, Corn Belt did not effectively manage
      key risks in its loan portfolio, including individual credit concentrations and loans with
      high loan-to-value (LTV) ratios, or implement an effective loan grading system and
      methodology for computing an adequate allowance for loan and lease losses (ALLL).
      Further, Corn Belt relied heavily on non-core funding sources, especially brokered
      deposits, to fuel growth in its loan portfolio without establishing adequate risk mitigation
      controls. The FDIC and IDFPR examiners repeatedly expressed concern about Corn
      Belt’s high-risk practices in these areas in the years leading up to its failure. However,
      the actions taken by Corn Belt’s Board and management to address examiner concerns
      were not adequate. As economic conditions declined, significant asset deterioration
      occurred due to the institution’s weak risk management practices. The associated losses
      and additional ALLL provisions quickly depleted capital and earnings while significantly
      impairing the institution’s liquidity position. On February 13, 2009, Corn Belt was
      closed because it did not have sufficient capital.


Rapid Growth Without Adequate Risk Management

      During 2003 through 2005, Corn Belt increased its loan portfolio at a pace that
      significantly exceeded both the institution’s peer group and its own internal growth plans.
      Figure 1, on the following page, illustrates the rapid growth of Corn Belt’s loan portfolio
      relative to its peer group during this period. Examiners expressed concern during the
      July 2003 examination that rapid growth in Corn Belt’s loan portfolio, together with
      pervasive risk management weaknesses, described later in this report, presented
      significant risk to the future quality of Corn Belt’s assets. In the April 2004 response to
      examiner concerns, Corn Belt’s Board approved a written growth plan containing what
      the examiners determined to be “reasonable parameters.” However, Corn Belt increased
      its loan portfolio in 2004 and 2005 at a rate that far exceeded those parameters.

      During the December 2005 examination, examiners again expressed concern that Corn
      Belt’s poor strategic planning and growth management could lead to serious future
      problems. Although Corn Belt curbed its loan growth considerably starting in 2006, the
      poor risk management practices that plagued the institution during its critical growth
      period did, in fact, result in serious asset quality problems in the years that followed when
      economic conditions worsened.




                                                    3
 Figure 1: Annual Growth of Corn Belt’s Loan Portfolio Relative to Peers’ Growth
                 70.00%
                 60.00%
                 50.00%
                 40.00%
                 30.00%
   Growth Rate




                 20.00%
                 10.00%
                  0.00%
                 -10.00%
                 -20.00%
                 -30.00%
                 -40.00%
                           2003   2004          2005    2006         2007     2008
                                         Year Ending December 31

                                            Corn Belt   Peer Group

 Source: OIG Analysis of UBPRs for Corn Belt.

Summarized below are the more salient weaknesses in Corn Belt’s risk management
practices that contributed to the institution’s failure.

Loan Underwriting and Credit Administration. Corn Belt’s loan portfolio consisted
of a complex mix of construction, commercial, and agricultural loans that required a
sustained level of effort to adequately underwrite and monitor the loans. Weaknesses in
Corn Belt’s loan underwriting and credit administration practices, particularly during the
2003 and 2005 examinations, were a significant contributing factor to the asset quality
problems that examiners began to identify at the 2007 examination.

With the exception of the August 2004 examination, every examination conducted from
2003 until the institution’s failure identified pervasive loan underwriting and credit
administration deficiencies. Such deficiencies included the lending staff’s (1) failure to
obtain or document sufficient financial information (e.g., financial statements, income
information, cash flow statements, tax returns, and credit reports) on borrowers and
(2) lack of knowledge or understanding of key borrower and/or credit relationships. For
example, in 2003 examiners found that loan officers failed to obtain or document
sufficient financial information on borrowers before advancing funds or at the time of
renewal or extension. In the 2008 ROE, examiners stated that the majority of the
exceptions involved the lack of financial information for borrowers or guarantors,
primarily for those borrowers whose loans were adversely classified. When financial
information was obtained, there was generally no indication that it had been reviewed or
analyzed by the loan officer. Without such information, bank management could not
assemble a clear picture of a borrower’s financial capacity and repayment ability.


                                                  4
Additionally, examiners expressed concern during several examinations that the
institution’s loan function was not adequately staffed.

Examiners also identified deficiencies in Corn Belt’s loan policy in many of the
examinations conducted from 2003 until the institution’s failure. Deficiencies in the loan
policy included inadequate guidance for charged-off loans and debt-to-income ratios.
Further, examiners identified instances in which interest on loans was capitalized when
the borrower was experiencing financial difficulties, which had the effect of delaying the
recognition of problem loans.

According to DSC, in addition to the bank’s loan underwriting and credit administration
practices, management’s appetite for riskier loans was another major factor contributing
to the bank’s asset quality problems, .

Credit Concentrations. In every examination that was conducted from 2003 until the
institution’s failure, examiners reported that Corn Belt’s loan portfolio contained
excessive credit concentrations3 to individual borrowers. Although examiners
recommended that Corn Belt take steps to reduce these concentrations and pursued
formal and informal corrective actions in this regard, Corn Belt’s efforts to address the
concentrations were not adequate. Table 2, below, summarizes the individual
concentrations identified by examiners during the last four examinations of Corn Belt.

Table 2: Summary of Credit Concentrations in Corn Belt’s Loan Portfolio
                                                                                                            Amount
                                         Combined           Percentage      Percentage                     of Special
                  Number of              Amount of           of Total        of Tier 1       Amount         Mention
 Examination      Individual           Concentrations         Loan            Capital       Classified       Loans
     Date      Concentrations            (Millions)          Portfolio                      (Millions)     (Millions)
   12/12/05             6              $92.7                    45%            432%           $0.0          $40.2
   12/11/06             6             $102.1                    39%            410%           $9.2          $12.0
   11/26/07             8              $112                     35%            410%           $8.6           $0.0
   09/29/08             6              $85.8                    35%           1,071%          $53.5          $2.5
Source: OIG Analysis of FDIC and IDFPR ROEs.

At the September 2008 examination, examiners determined that three individual
concentrations accounted for $21.8 million in loans classified substandard and
$10.5 million in loans classified loss. These same three concentrations represented
39 percent of Corn Belt’s total loan classifications during this examination. Examiners
concluded that the dramatic increase in classified loans identified in the September 2008
examination resulted from deteriorating financial positions and questionable collateral
values. In many instances, examiners noted that credits were performing marginally or
had only modest cash flows. Other credits were considered borderline during the
previous examination, but the economic downturn magnified weaknesses in several
borrowers’ cash flows and balance sheets.

3
  For purposes of this discussion, credit concentrations are obligations of 25 percent or more of Tier 1
Capital to an individual borrower, small interrelated group of individuals, single repayment source, or
individual project.


                                                      5
Loans with High LTV Ratios. In every examination conducted from June 2003 to the
institution’s failure, examiners identified numerous loans with LTV ratios that were
well in excess of limitations recommended in supervisory guidance.4 In one case, a high
LTV loan was held by a borrower that had been identified as an individual credit
concentration. Examiners reported that the high LTV ratios exposed Corn Belt to
significant risk. Examiners also noted that reports submitted to Corn Belt’s Board
regarding the number and amount of high LTV loans were often inaccurate because the
reports did not include all high LTV loans. The inaccurate reports hindered Corn Belt’s
ability to effectively manage risks associated with the high LTV loans. DSC stated that
even with accurate reports on high LTV loans, another significant issue was
management’s high risk tolerance in booking these loans.

Loan Grading and ALLL. During the November 2007 examination, examiners
identified significant differences between their assessment of the quality of Corn Belt’s
loans and the grades assigned by Corn Belt’s internal loan grading system. Such
weaknesses can, and did, result in a failure to recognize actual losses and in an
underfunded ALLL and provision for probable losses. The examiners recommended that
management perform a complete re-evaluation of all loan grades within the portfolio to
ensure that the ALLL was adequately funded.

During the September 2008 examination, examiners identified a significant amount of
classified loans that had not been properly graded by Corn Belt’s internal loan grading
system, resulting in a greatly underfunded ALLL. A total of 41 relationships, with loans
totaling $60.5 million, were classified by examiners during the September 2008
examination but had been identified as acceptable or better by Corn Belt’s management.
Examiners concluded that Corn Belt’s procedures for the early identification of problem
or deteriorating credits and for grading loans were wholly ineffective. Table 3, on the
following page, summarizes examiner classifications of Corn Belt’s loans in the years
leading to the institution’s failure.




4
  Part 365 of the FDIC Rules and Regulations, Appendix A (Interagency Guidelines for Real Estate
Lending Policies) provides, in part, that the aggregate amount of all loans in excess of the supervisory LTV
limits should not exceed 100 percent of total capital. In addition, within the aggregate limit, total loans
exceeding the supervisory limits for commercial, agricultural, multifamily or other non-1-4 family
residential properties should not exceed 30 percent of total capital. Corn Belt regularly exceeded both
thresholds.


                                                     6
      Table 3: Corn Belt’s Adversely Classified Assets and ALLL
                                                              Asset Quality
                                                          (Dollars in Thousands)
                                  Assets Adversely Classified by Examiners                  ALLL Amounts
                                                                                         ALLL        Increase in
                                                                       Total           Computed        ALLL
           Examination                                               Adversely          by Corn     Computed by
              Date       Substandard     Doubtful       Loss      Classified Items        Belt       Examiners

          07/14/03              $8,961          $0          $14               $8,975      $1,045             $800
          08/02/04              $3,439          $0          $19               $3,458      $1,576                $0
          12/12/05              $3,405          $0         $271               $3,676      $2,184              $595
          12/11/06             $22,775          $0         $312              $23,087      $3,320              $700
          11/26/07             $25,931          $0       $1,956              $27,887      $4,881            $1,800
          09/29/08             $70,989          $0      $13,354              $84,343      $5,107           $19,611
      Source: FDIC and IDFPR ROEs.

      In addition to noting weaknesses in Corn Belt’s loan grading system, examiners noted
      deficiencies in Corn Belt’s ALLL methodology in every examination conducted from
      2003 until the institution’s failure. Specifically, later examinations identified that Corn
      Belt’s ALLL practices did not comply with the 2006 Interagency Policy Statement on the
      Allowance for Loan and Lease Losses (ALLL) and Questions and Answers on Accounting
      for Loan and Lease Losses (2006 ALLL Policy Statement).5 The rapid deterioration in
      Corn Belt’s loan portfolio underscores the importance of appropriately estimating the
      ALLL in order to ensure an accurate representation of earnings and to provide for
      adequate capital levels.

Reliance on Non-Core Funding

      Corn Belt’s heavy reliance on non-core funding6 to support its rapid loan growth was a
      contributing factor in the institution’s failure. At the time of Corn Belt’s July 2003
      examination, examiners noted that Corn Belt’s liquidity position was only “marginally
      adequate” because over half of the institution’s deposits had been obtained from brokers
      and a deposit listing service. Examiners recommended that Corn Belt’s Board revise its
      policy limit on the amount of deposits that the institution could obtain from national
      markets and take steps to reduce its dependency on non-core funding. However, Corn
      Belt advised examiners in 2003 that the institution would continue to pursue a wholesale
      funding strategy because obtaining funds from national markets was considered more
      cost-efficient than obtaining funds from local markets. Without a limit on the amount of
      non-core funding that Corn Belt could obtain from national markets, Corn Belt used
      brokered deposits to increase its loan portfolio during 2004 and 2005, elevating the
      institution to the 99th percentile of its peer group with respect to its net non-core funding
      5
        Under the 2006 ALLL Policy Statement, institutions are expected to have controls in place to consistently
      determine their ALLL in accordance with Generally Accepted Accounting Principles (GAAP), the
      institution’s stated policies and procedures, management’s best judgment, and relevant supervisory
      guidance.
      6
        Corn Belt’s non-core funding sources consisted principally of brokered deposits. A deposit listing service
      and Federal Home Loan Bank (FHLB) borrowings were also used.


                                                           7
dependence. Figure 2, below, illustrates Corn Belt’s reliance on brokered deposits during
its rapid growth period compared to the growth of its peers.

 Figure 2: Corn Belt’s Brokered Deposits Relative to Peers’ Brokered Deposits
                                  70

                                  60
   Percentage of Total Deposits




                                  50

                                  40

                                  30

                                  20

                                  10

                                   0
                                       2003   2004     2005         2006      2007   2008
                                                     Year Ended December 31

                                                        Corn Belt     Peers

Source: OIG Analysis of UBPRs for Corn Belt.

During the December 2005 examination, examiners made several recommendations to
improve Corn Belt’s liquidity risk profile. Among other things, examiners recommended
that Corn Belt diversify its funding sources and develop a contingency funding plan to
prepare for the possibility that the institution would fall below the “well capitalized”
category for PCA purposes. Given Corn Belt’s reliance on brokered deposits,
maintaining a “well capitalized” position was critically important because the FDIC can
restrict the use of brokered deposits for institutions that fall to the “adequately
capitalized” level or below. Corn Belt’s Board passed a Bank Board Resolution (BBR)
on March 24, 2006, requiring the development of a plan to improve the institution’s
liquidity risk profile.

Although Corn Belt took some steps to reduce its liquidity risk profile based on the BBR,
examiners concluded during the December 2006 examination that these efforts were not
adequate and made additional recommendations to the Board for improving Corn Belt’s
liquidity. These recommendations related to Corn Belt adopting a plan to improve its
management of liquidity risk and developing the plan in consideration of the following
examination comments:

       • Develop an internal audit function to cover the liquidity area.
       • Establish more conservative limits for national market deposits.
       • Ensure the liquidity ratio is being calculated according to the guidelines in the
         bank’s asset, liability, and liquidity management policy.


                                                              8
         • Include appropriate discussions in the Asset/Liability Committee and board minutes
           when the bank is operating outside of established benchmarks.
         • Improve generation of core deposit base.

      Based on the results of the December 2006 examination, the FDIC entered into a
      Memorandum of Understanding (MOU) with Corn Belt on April 2, 2007. The MOU
      required, among other things, that Corn Belt develop a plan to improve the institution’s
      liquidity position and to reduce its dependence on volatile liabilities to fund loans and
      long-term assets. In the November 2007 examination, examiners noted that Corn Belt
      had taken some action to address the liquidity provisions of the MOU; however, the
      institution continued to operate without a satisfactory liquidity position due to its
      leveraged funding strategy of using brokered deposits and wholesale borrowings to fund
      aggressive loan growth. Of particular note, examiners reported that Corn Belt had
      reduced the amount of its brokered deposits but that it also increased its use of an Internet
      deposit listing service to obtain funding that had characteristics similar to those of
      brokered deposits.

      Based on the results of the November 2007 examination, the FDIC entered into another
      MOU with Corn Belt on March 20, 2008 that again required Corn Belt to develop a plan
      to improve its liquidity position and reduce its dependence on volatile funding. However,
      during the September 2008 examination, examiners found that Corn Belt’s liquidity
      position was critically deficient and continued to be strained by an overreliance on
      brokered deposits. Examiners also identified serious asset quality problems in Corn
      Belt’s loan portfolio. The resulting large loss provision caused Corn Belt’s capital
      position to fall from “well capitalized” to “significantly undercapitalized” for PCA
      purposes. Accordingly, Corn Belt was prohibited from accepting, renewing, or rolling
      over brokered deposits.

      Corn Belt’s Chief Financial Officer advised examiners during the September 2008
      examination that the institution’s liquidity position had become critical and that the
      institution’s sources of liquidity would likely be exhausted by January 2009. The FDIC
      issued a Cease and Desist Order (C&D) on December 31, 2008 that required Corn Belt to
      cease and desist from various actions, including operating with inadequate liquidity in
      light of the bank’s asset and liability mix. The C&D stipulated that within 30 days, Corn
      Belt was to adopt a written contingency funding plan, acceptable to both the FDIC and
      IDFPR, that identified sources of liquid assets to meet the bank’s contingency funding
      needs over time horizons of 1, 2, and 3 months. However, the institution was already at
      serious risk of failure at that time.

Attention to Examiners’ Concerns

      During the July 2003 examination, examiners identified and reported a number of
      concerns that they determined could lead to serious future financial problems at the
      institution. Such concerns included rapid loan growth without adequate underwriting and
      credit administration, excessive individual credit concentrations, loans with high LTV
      ratios, weak loan grading and ALLL practices, and a heavy reliance on non-core funding


                                                    9
sources. In the years that followed, examiners repeatedly reported that Corn Belt was not
taking adequate action to address these concerns. Examiners communicated these
concerns to Corn Belt’s Board and management through ROEs, recommendations,
suggestions, and formal and informal corrective actions. The ineffectiveness of Corn
Belt’s actions to address examiner concerns was a contributing factor in the institution’s
failure.

As previously discussed, examiners consistently recommended that Corn Belt diversify
its funding sources and develop a contingency plan to do so rather than rely on non-core
deposits to fund its significant asset growth. When Corn Belt did decrease its brokered
deposits, it obtained funding from an Internet deposit listing service rather than increase
its core deposits. From the 2005 through 2008 examinations, Corn Belt was either slow
to respond or not responsive to examiners’ repeated concerns regarding individual
concentrations as noted below:

   • December 2005 Examination – “Increased efforts are needed by management and
     the Board to monitor compliance with the lending policy. Management and the
     Board have allowed the number and outstanding balances of individual
     concentrations to grow dramatically despite the Loan Policy stating a goal of the
     bank was to diversify loans to avoid a concentration of credit to specific industries,
     persons, or entities. Policy guidance in this area was inadequate and warranted
     expansion to place appropriate limits on the number and volume of concentrations.
     While the Board receives a quarterly report of concentrations, management has
     failed to include several concentrations noted at this examination.”

   • December 2006 Examination – “Management should formulate a plan to reduce the
     risk in [individual] loan concentrations…Loan Policy should be amended to include
     appropriate limits on the number and volume of concentrations.” Corn Belt stated
     that management was attempting to correct this deficiency.

   • November 2007 Examination – “Management has exhibited inadequate risk
     diversification practices. Although progress has been made in decreasing the two
     largest relationship concentrations, the overall level of concentrations to capital was
     not materially different from the last examination.” Corn Belt explained that
     reductions in concentrations did not occur as quickly as anticipated but expected
     reductions in two other individual concentrations.

   • September 2008 Examination – Management continued inadequate risk
     diversification practices and failed to reduce concentrations of credit. The Board
     entered into informal agreements that emphasized reducing credit concentrations;
     however, the Board was not successful in reducing the risk posed by the
     concentrations. Specifically, Corn Belt’s plan was to reduce the concentrations by
     selling participations in the loans or refinancing the loans with other banks, but the
     bank’s declining capital levels and the quality of some of the concentrations
     hindered the bank’s plans.



                                             10
Additionally, from the 2005 through 2008 examinations, examiners expressed repeated
concerns in the ROEs about Corn Belt’s capital:

   • December 2005 Examination – Examiners were concerned that Corn Belt’s Total
     Risk-Based Capital ratio declined from 11 percent at December 31, 2004 to 10.1
     percent at September 30, 2005. This decline was due to asset growth, primarily in
     loans. If the ratio fell below 10 percent, Corn Belt would be adversely impacted in
     its insurance assessment and its ability to obtain brokered deposits. Corn Belt’s
     capital contingency plan was to increase its holding company line of credit, issue
     holding company stock to existing shareholders, issue additional trust-preferred
     securities through the holding company, and issue non-voting common stock to new
     shareholders. The holding company would inject funds from these sources into the
     bank. Management would also slow its growth if these funds could not be raised.

   • December 2006 Examination – Significant asset growth in the last year and the
     replenishment of the ALLL at this examination were the primary reasons for the
     decline in the capital ratios. Growth was mainly in commercial and non-residential
     real estate loans, which are assigned the highest risk weightings for risk-based
     capital purposes. “Management constantly monitors the Total Risk-Based Capital
     position due to the thin margin with which the bank remains in the ‘well-
     capitalized’ category.” Management’s capital model for 2007 through 2009
     projected 8 percent growth during 2007 and indicated that no holding company
     capital infusions would be necessary even though the holding company had
     $2 million available on its line of credit to inject into the bank. However, bank
     management expected asset growth would be 10 percent in 2007.

   • November 2007 Examination – “Although there has not been any major change in
     the capital ratios, the increased severity in loan classifications, negligible forecasted
     earnings retention, and continued asset growth placed additional pressure on capital.
     Management appropriately monitors the capital ratios, in particular the Total Risk-
     Based Capital ratio. Management is very committed to maintaining the bank’s
     ‘well-capitalized’ position because of the bank’s continued reliance on brokered
     deposits for funding bank assets. The present earnings performance is not sufficient
     to augment capital. In order to prevent falling out of the ‘well-capitalized’
     category, management has determined that a capital infusion will be necessary
     before year-end 2007. The holding company has proven to be a viable source of
     capital in the past.” Corn Belt’s options were to sell participations in its loans and
     not renew its participations in loans at another financial institution. Corn Belt
     agreed to develop a capital contingency plan.

   • September 2008 Examination – The excessive level of adversely classified assets,
     the severity of the classifications, and the provision required for an adequate ALLL
     rendered capital “significantly undercapitalized” per PCA. Earnings were not
     expected to support capital for some time. To maintain adequate capital ratios,
     management began shrinking its assets. Because its capital ratios were below PCA
     requirements, Corn Belt was no longer able to use brokered deposits to fund its


                                             11
           growth. Corn Belt paid maturing brokered deposits by reducing the amount of
           federal funds sold or obtaining time deposits from an Internet listing service. Also,
           the Illinois Banking Act prohibited dividend payments. The holding company was
           no longer a source of capital due to its outstanding debt.

      These repeated examination concerns demonstrate that bank management did not take
      adequate action to address Corn Belt’s problems.

ASSESSMENT OF FDIC SUPERVISION

      The FDIC, in conjunction with the IDFPR, provided ongoing supervision of Corn Belt
      through regular risk management examinations, visitations, and offsite monitoring.
      Examiners were actively engaged in overseeing the institution in the years before its
      failure and identified the key risks that ultimately caused Corn Belt to fail. Such risks
      included rapid loan growth without adequate underwriting and credit administration,
      excessive credit concentrations, loans with high LTV ratios, weak loan grading and
      ALLL practices, and heavy reliance on non-core funding sources. Examiners brought
      these risks to the attention of Corn Belt’s Board and management before the risks resulted
      in serious financial problems.

      The FDIC and IDFPR also pursued both formal and informal corrective actions when
      other attempts to address risks identified by examiners were unsuccessful. While such
      corrective actions were positive, we concluded that the FDIC could have taken earlier and
      more assertive actions with respect to (1) requiring Corn Belt to hold additional capital
      commensurate with the risk in its loan portfolio and funding strategy and (2) pursuing
      formal enforcement action, rather than a second MOU, when bank management had not
      taken adequate action on prior informal actions.

Historical Snapshot of FDIC Supervision

      As reflected in Table 4, on the following page, the FDIC, in coordination with the
      IDFPR, conducted nine on-site examinations or visitations from 2003 until the
      institution’s failure. Through these supervisory efforts, FDIC and state examiners
      identified key risks in Corn Belt’s business practices. Examiners presented these risks to
      Corn Belt’s Board and management through discussions and recommendations in ROEs.
      The FDIC and IDFPR also pursued informal corrective actions to address examiner
      concerns, including BBRs and MOUs. Following the November 2007 examination, the
      FDIC became increasingly concerned about the financial condition of Corn Belt and
      decided to conduct an unscheduled examination in September 2008. During this
      examination, the examiners identified serious financial problems with the institution and
      issued a C&D on December 31, 2008.




                                                  12
      Table 4: On-Site Supervisory Efforts
                                           Supervisory                              Date
       Date              On-Site            Composite    Action As a Result of     Action
                   Supervisory Effort        Rating          Examination         Terminated
      07/14/03     FDIC Examination             3           BBR 12/19/03           11/1/04
      03/22/04       Joint Visitation       No Rating       Not Applicable
      08/02/04      Joint Examination           2               None
      12/12/05     FDIC Examination             2            BBR 3/24/06           4/2/07
      04/24/06       Joint Visitation       No Rating       Not Applicable
      12/11/06      Joint Examination           3            MOU 4/2/07           3/25/08
      07/11/07       Joint Visitation       No Rating       Not Applicable
      11/26/07      Joint Examination           3            MOU 3/20/08          2/13/09
      9/29/08       Joint Examination           5           C&D 12/31/08          2/13/09
      Source: FDIC and IDFPR ROEs and Actions.

      In addition to on-site examination work, the FDIC performed various off-site supervisory
      activities to monitor the condition of Corn Belt and its progress in addressing previously
      identified risks and weaknesses. For example, FDIC examiners contacted Corn Belt in
      2003 and 2005 as part of the FDIC’s Calling Program, which is part of the off-site
      supervisory program. In the Calling Program, the FDIC and Corn Belt’s management
      discussed the general condition of the bank as to capital, asset quality, management,
      earnings, liquidity, and sensitivity to market risk. Further, the FDIC’s case managers for
      Corn Belt reviewed quarterly progress reports submitted by the institution pursuant to
      BBRs and MOUs.

OIG Assessment of FDIC Supervision

      Although the FDIC and IDFPR pursued both formal and informal corrective actions
      when other attempts to address risks identified by examiners were unsuccessful, we
      concluded that more proactive supervisory action may have influenced Corn Belt’s Board
      and management to constrain its excessive risk taking and to take more timely and
      effective action in response to examiner concerns. Specifically, the FDIC could have
      required Corn Belt to hold a greater amount of capital or to submit a capital contingency
      plan sooner than had been required given the institution’s high-risk profile. In addition,
      the FDIC could have pursued a formal enforcement action following the 2007
      examination (rather than a second MOU), as a result of the institution’s failure to
      adequately address provisions in two prior informal corrective actions – the BBR in 2006
      and the MOU in 2007. By the time the FDIC issued a formal enforcement action on
      December 31, 2008, Corn Belt’s failure was highly probable.

      Capital Adequacy. In each of the examinations conducted from July 2003 until
      November 2007, Corn Belt was considered “well capitalized” for PCA purposes.
      However, examiners expressed concern during this period that Corn Belt’s capital
      position was only marginally adequate because of its high-risk profile. In addition, Corn
      Belt’s heavy dependence on brokered deposits meant that maintaining a “well
      capitalized” designation for PCA purposes was critically important for avoiding a
      potential liquidity crisis. As reflected in Table 5 which follows, Corn Belt maintained a


                                                  13
Total Risk-based Capital ratio that was just above the 10-percent-minimum level for the
“well capitalized” category for 2006 and 2007.

Table 5: Corn Belt’s Total Risk-Based Capital
 Examination          2003          2004         2005        2006         2007         2008
 Date
 Total Risk-          10.72%        12.54%       11.05%*     10.18%       10.01%       4.51%
 Based Capital
Source: FDIC and IDFPR ROEs.
* Examination comments state that Total Risk-Based Capital is 10.1%, and the Examination Ratios section
states 11.05%.

According to DSC’s Risk Management Manual of Examination Policies, institutions are
expected to maintain capital commensurate with the nature and extent of risks to the
institution and management’s ability to identify, measure, monitor, and control risks. In
this regard, the adequacy of capital for safety and soundness purposes may differ from
minimum leverage and risk-based standards, PCA regulations, and certain other capital-
based rules. The manual also states that the minimums set forth in the leverage and risk-
based capital standards apply to sound, well-run institutions and that most institutions do,
and are generally expected to maintain capital levels above the minimums, based on the
institution’s particular risk profile. In all cases, institutions should maintain capital
commensurate with the level and nature of risks to which they are exposed, including the
volume and severity of adversely classified assets.

To its credit, the FDIC entered into an MOU with Corn Belt in March 2008 requiring,
among other things, that the institution (1) maintain a Total Risk-based Capital ratio of at
least 10 percent and (2) develop a written Capital Contingency Plan. Provisions in the
March 24, 2006 BBR and the April 2, 2007 MOU did not require Corn Belt to develop a
Capital Contingency Plan or maintain designated capital ratios. It was prudent for the
FDIC to have taken supervisory action with respect to capital when the institution was
still “well capitalized.” However, requiring Corn Belt to hold additional capital during
and after its rapid growth period from 2003-2005 could have provided the institution an
additional cushion for absorbing losses and could have influenced the institution to
reduce its excessive risk taking before serious financial problems developed. In addition,
requiring Corn Belt to submit a capital contingency plan sooner than March 2008 would
have elevated supervisory attention in this area and could have provided Corn Belt an
additional incentive to take more effective and timely actions to address examiner
concerns.

Informal and Formal Enforcement Actions. Informal actions to address the bank’s
overall risk and internal control deficiencies were not effective, and formal enforcement
actions were needed earlier. After the 2006 examination, the FDIC entered into an MOU
with Corn Belt on April 2, 2007 to address a number of weaknesses that had been
identified and reported by examiners in prior ROEs and BBRs. During the November
2007 examination, the examiners noted that although Corn Belt had taken some action to




                                                  14
address the provisions of the April 2007 MOU, the actions were not adequate. The FDIC
entered into a second MOU with Corn Belt on March 20, 2008.

The provisions of the second MOU were substantially the same as the prior MOU, except
that the latter MOU added a capital-related provision. (See Appendix 4 for our
comparison of the provisions of these MOUs and a subsequent C&D.) During the
September 2008 examination, the examiners found that Corn Belt’s actions to address the
March 2008 MOU were also inadequate, and the FDIC subsequently issued a C&D on
December 31, 2008.

Section 8(b) of the FDIC Act authorizes the FDIC to issue C&Ds when the facts
reasonably support the conclusion that an insured depository institution has engaged, or is
about to engage in, an unsafe or unsound practice in conducting the business of the
institution or a violation of a law, rule, regulation, or written agreement with the FDIC.
As described in Table 6, below, at least three examinations showed that Corn Belt
engaged in practices that supported the issuance of a C&D.

Table 6: Institution Practices Supporting Issuance of a C&D
                                                                                      Examination that
                                                                                       Noted Corn Belt
           Practices that Would Support the Issuance of a C&D Per
                                                                                        Exhibited the
                          Section 8(b) of the FDI Act
                                                                                          Practice
                                                                                   2006    2007    2008
Failure to provide adequate supervision and direction over the officers of the      9       9       9
bank to prevent unsafe and unsound practices, and violation(s) of laws, rules,
and regulations.
Failure to make provision for an adequate allowance for loan losses.                9       9      9
Operating with an inadequate level of capital for the kind and quality of assets            9      9
held.
Engaging in hazardous lending and lax collection practices.                         9       9      9
Operating without adequate liquidity, in light of the bank’s asset and liability            9      9
mix.
Excessive volume of loans subject to adverse classification, overdue loans,                 9      9
and non-earning assets.
Source: ROEs for Corn Belt.

According to the Risk Management Manual of Examination Policies, Section. 15.1,
Formal Administrative Actions, the FDIC may take either a formal or informal action
regarding banks with composite ratings of 3, 4, or 5 unless specific circumstances argue
strongly to the contrary. Banks with composite ratings of 4 or 5 will have problems of
sufficient severity to warrant formal action, which usually is a C&D. Corn Belt’s
composite rating was a 3 at the 2006 and 2007 examinations and a 5 at the 2008
examination.

Corn Belt’s management had a history of failing to adequately address the provisions of
its BBRs and MOUs. In light of the institution’s failure to adequately address risks in the
prior BBRs and MOU, the FDIC could have pursued a formal enforcement action, such


                                                 15
     as a C&D, following the November 2007 examination in lieu of the use of a second
     MOU in March 2008. A formal enforcement action at that time may have helped to
     prevent the bank’s failure or to mitigate the level of losses incurred.

IMPLEMENTATION OF PCA

     The purpose of PCA is to resolve problems of insured depository institutions at the least
     possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
     implements PCA requirements by establishing a framework for taking prompt corrective
     action against insured nonmember banks that are not adequately capitalized. Based on
     the supervisory actions taken, the FDIC properly implemented applicable PCA provisions
     of section 38. However, PCA was not effective in limiting losses to the DIF because it
     did not result in action until after the institution was at serious risk of failure.

     In the case of Corn Belt, capital was a lagging indicator of the institution’s financial
     health. As discussed earlier in this report, examiners noted during their examinations that
     the ALLL was often underfunded, which resulted in an overstatement of the bank’s
     capital position. The effectiveness of PCA depends upon the accuracy of financial
     information submitted by institutions in Reports of Condition and Income (Call Report).
     Further, by the time Corn Belt’s capital level fell below the required threshold necessary
     to implement PCA, the institution’s condition had deteriorated to the point at which it
     could not raise needed capital to maintain the “well capitalized” category of PCA.

 Summary of Actions Taken Related to PCA

     With respect to PCA, we concluded that the FDIC implemented the notification
     provisions of PCA consistent with section 38 of the FDI Act. However, PCA was not
     effective in limiting losses to the DIF because it did not require action until after the
     institution was at serious risk of failure given the significant asset deterioration that had
     occurred and its impact on earnings, capital, and liquidity.

     On October 31, 2008, the FDIC notified Corn Belt that its capital category for purposes
     of PCA had fallen to “significantly undercapitalized.” The FDIC’s notification included
     a reminder of the requirements that Corn Belt had become subject to based on its PCA
     capital category. Such requirements included, among other things, a prohibition on the
     acceptance, renewal, or rolling over of any brokered deposits. The October 2008
     notification required Corn Belt to submit a written capital restoration plan and a summary
     of the steps taken by the institution’s management to comply with the mandatory
     restrictions of section 38 to the FDIC by December 14, 2008.

     On January 15, 2009, the FDIC notified Corn Belt’s management that a capital
     restoration plan submitted on December 19, 2008 in response to the PCA notification was
     vague because it did not provide specific details on the institution’s plans to increase its
     Tier 1 Capital. Accordingly, the FDIC requested that Corn Belt submit a new capital
     restoration plan. The new plan, which was submitted on February 9, 2009, was reviewed
     by the FDIC and determined it to be unacceptable because it was based on unrealistic


                                                   16
    assumptions. On February 10, 2009, the FDIC notified Corn Belt that its proposed
    capital restoration plan was not approved. The FDIC’s notification also included a
    statement that, as indicated in prior correspondence to the institution on October 31,
    2008, and January 15, 2009, Corn Belt had failed to provide a summary of the specific
    steps taken to comply with the mandatory restrictions of section 38 as well as a written
    acknowledgment that the Board had considered the FDIC’s correspondence. Corn Belt
    was closed on February 13, 2009 because it did not have sufficient capital to operate its
    business.

CORPORATION COMMENTS

    On September 1, 2009 the Director, Division of Supervision and Consumer Protection
    (DSC), provided a written response to the draft report. DSC’s response is provided in its
    entirety as Appendix 3 of this report.

    DSC summarized the OIG’s findings that Corn Belt failed primarily due to bank
    management’s aggressive pursuit of rapid asset growth while failing to implement sound
    risk management practices, followed by a deterioration in asset quality during the
    economic downturn that led to loan losses depleting capital and earnings and impairing
    liquidity. Further, DSC reiterated the OIG’s observations that examiners provided
    ongoing supervision and identified key risks and brought those risks to the attention of
    management. DSC stated that the regulators pursued various and increasingly more
    stringent actions to address Corn Belt’s increasing risk profile but noted the OIG
    conclusions that these actions did not lead to management’s correction of the deficiencies
    and that additional capital restrictions may have been effective.

    In its response, DSC acknowledged that higher capital requirements can be an effective
    supervisory tool and that it has provided further guidance to enhance the supervision of
    institutions with high levels of volatile non-core funding.




                                                17
                                                                                       APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which
      provides, in general, that if a deposit insurance fund incurs a material loss with respect to
      an insured depository institution, on or after July 1, 1993, the Inspector General of the
      appropriate federal banking agency shall prepare a report to that agency reviewing the
      agency’s supervision of the institution. The FDI Act requires that the report be
      completed within 6 months after it becomes apparent that a material loss has been
      incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38. We conducted
      the audit from March 2009 through August 2009 in accordance with generally accepted
      government auditing standards. However, due to the limited scope and objectives
      established for material loss reviews, which are generally applied to just one financial
      institution, it may not have been feasible to address certain aspects of the standards, as
      described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of Corn Belt’s operations from June 30, 2000
      until its failure on February 13, 2009. Our review also entailed an evaluation of the
      regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by FDIC and IDPFR
                 examiners from 2000 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Chicago Regional
                       Office and Springfield Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records provided by Corn Belt’s external auditor.

                   •   Bank records, maintained by DRR’s Dallas Regional Office, for information
                       that would provide insight into the bank’s failure, various annual reports, and
                       accompanying financial statements.



                                                       18
                                                                                       APPENDIX 1


                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in Washington, D.C.; the Chicago Regional Office,
                     Chicago, Illinois; and the Springfield Field Office, Springfield, Illinois.

                 •   DRR official at the Dallas Regional Office.

                 •   FDIC examiners from the Springfield Field Office, Springfield, Illinois, who
                     participated in examinations of Corn Belt.

           •   Met with officials from the IDFPR, Chicago, Illinois, to discuss the historical
               perspective of the institution, its examinations, state banking laws, and other
               activities regarding the state’s supervision of the bank.

           •   Researched various banking laws and regulations, including State of Illinois laws.

      We performed the audit field work at the DSC Chicago Regional Office and Springfield
      Field Office in Illinois and at the DRR Dallas Regional Office, in Dallas, Texas.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of Corn Belt’s
      management controls pertaining to its operations as discussed earlier in this report. For
      purposes of the audit, we did not rely on computer-processed data to support our
      significant findings and conclusions. Our review centered on interviews, ROEs and
      correspondence, and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.

      Regarding compliance with laws and regulations, we analyzed documentation to
      determine whether the FDIC had complied with provisions of PCA and performed
      limited tests to determine compliance with certain aspects of the FDI Act. The results of
      our tests were discussed, where appropriate, in the report. Additionally, we assessed the
      risk of fraud and abuse related to our objectives in the course of evaluating audit
      evidence.



                                                      19
                                                                                  APPENDIX 2
                                GLOSSARY OF TERMS


      Term                                                 Definition
Adversely           Assets subject to criticism and/or comment in an examination report. Adversely
Classified Assets   classified assets are allocated on the basis of risk (lowest to highest) into three
                    categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is adequate to
Loan and Lease      absorb the estimated loan losses associated with the loan and lease portfolio
Losses (ALLL)       (including all binding commitments to lend). To the extent not provided for in a
                    separate liability account, the ALLL should also be sufficient to absorb estimated
                    loan losses associated with off-balance sheet loan instruments such as standby
                    letters of credit.
Cease and Desist    A C&D is a formal enforcement action issued by a financial institution regulator to
Order (C&D)         a bank or affiliated party to stop an unsafe or unsound practice or a violation of
                    laws and regulations. A C&D may be terminated when the bank’s condition has
                    significantly improved and the action is no longer needed or the bank has materially
                    complied with its terms.
Component and       Financial institution regulators and examiners use the Uniform Financial
Composite           Institutions Rating System to evaluate a bank’s performance in six components
Ratings             represented by the CAMELS acronym: Capital adequacy, Asset quality,
                    Management practices, Earnings performance, Liquidity position, and Sensitivity
                    to market risk. Each component, and an overall composite score, is assigned a
                    rating of 1 through 5, with 1 having the least regulatory concern and 5 having the
                    greatest concern.
Concentration       A concentration is a significantly large volume of economically related assets that
                    an institution has advanced or committed to a certain industry, person, entity, or
                    affiliated group. These assets may, in the aggregate, present a substantial risk to the
                    safety and soundness of the institution.
Prompt              The purpose of PCA is to resolve the problems of insured depository institutions at
Corrective Action   the least possible long-term cost to the DIF. Part 325, subpart B, of the FDIC Rules
(PCA)               and Regulations, 12 Code of Federal Regulations, section 325.101, et. seq.,
                    implements section 38, Prompt Corrective Action, of the FDI Act, 12 United States
                    Code section 1831o, by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately capitalized.
                    The following terms are used to describe capital adequacy: (1) Well Capitalized,
                    (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly
                    Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within any
                    of the three categories of undercapitalized institutions.
Special Mention     Assets subject to criticism and/or comment in an examination report. These assets
                    have potential weaknesses that deserve bank management’s close attention. If left
                    uncorrected, the asset’s potential weaknesses may result in the deterioration of the
                    asset’s repayment prospects or the bank’s credit position at some future date. These
                    assets do not expose the bank to sufficient risk to warrant an adverse classification.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data and ratios
Performance         that includes extensive comparisons to peer group performance. The Federal
Report (UBPR)       Financial Institutions Examination Council produces the report quarterly, from
                    banks’ Call Report data, for use by banking supervisors, bankers, and the general
                    public.


                                              20
                                                                                                                         APPENDIX 3
                                        CORPORATION COMMENTS
"iLill R ; G U ¡¡ii                           "ih If;hê                      UI. .        n_niiii _Æ      ,¡¡. ¡¡ i              44=




          FDICl
          Federal Deposit Insurance Corporation
           550 17th Streel NW. Washingto. D.C 2029-99                                Divisio 01 SUpeVlsion an Cosumer Prec:o




                                                                                  September i. 2009


           TO: Russcll A. Rau
                            Assistant Inspector Gcneral for Audits

           FROM: Sandra I. Thompson
                             Director

           SUIUECT: Dratt Audit Report Entitled, Material Loss Review of Com Belt Bank and Trust
                      CompanY. Pittsfield. llinois (Assignment No. 2009-027)

           Pursuant to Section 38(k) of      the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
           Insurance Corpration's Otlce of Inspector General (OIG) conducted a material loss rcview of
           Com Belt R¡ink and Trust Company (Com Belt), which failed on February 13,2009. This
           mcmorandum is the response of the Division of Supervision and Consumer Protection (DSC) to
           the OIG's Draft Audit Report (Report) received on August i 7,2009.

           The OIG found that Com Belt failed primarily due to managemenls aggrcssive pursuit of   rapid
           asset growth while failing to implement sound risk management practices. Deterioration in asset
           quality during the economic downturn led to loan losses depleting capital and earings and
           impairing liquidity.

           The Report concludes that the FDIC, in conjunction with the l1inois Deparmcnt of                       Finacial
           and Professional Regulation (IDFPR), provided ongoing supervision of             Corn Belt through
           regular risk management examinations, visitations. and offsite monitoring. Further, examiners
           identitied key risks and brought those risks to the attention of      management. As early as 2003,
           the FDIC and IDFPR used various and increasingly more stringent enforcement adions to
           address Corn Belt's increasing risk profile These actions ultimately resulted in a Cease and
           Desist Order in 2008 and appropriate restrictions under the Prompt Corrective Action provisions
           ofScction 38. The OIG notes that these actions did not lead to management's correction of          the
           deficiencies and additional capital restrictions may have becn effcctivc. DSC acknowledges that
           higher capital requirements can be an clTective supervisory tool and has provided further
           guidancc to enhance the supervision of institutions with high levels of volatile non-eore funding.

           Thank you for the opportwiity to review and comment on the Report.




                                                                21
                                                                                                                                                          APPENDIX 4

                                                           COMPARISON OF MOUs AND C&D ORDER


                  MOU APRIL 2007                                            MOU MARCH 2008                                            C&D DECEMBER 2008

Formulate, adopt, and submit a written plan of action to   Formulate, adopt, and submit a written plan of action to    Cease and desist from operating with an excessive level
lessen risk position in each “Substandard” asset that      lessen the risk position in each “Substandard” asset that   of adversely classified assets, delinquent loans, and
aggregated $100,000 or more.                               aggregated $100,000 or more.                                nonaccrual loans.
Formulate a plan to reduce risk in loan concentrations     Reduce the risk in each loan concentration of credit        Cease and desist from engaging in hazardous lending
of credit.                                                 listed in the ROE to less than 25% of the bank’s Tier 1     and lax collection practices, including poor selection of
                                                           Capital and adopt procedures to prevent future              credit risk, inadequate diversification or risk,
                                                           concentrations.                                             inappropriate lending controls and infrastructure, and
                                                                                                                       ineffective loan grading systems.
Correct deficiencies in loans listed for Special Mention   Correct deficiencies in loans listed for Special Mention    Not Applicable
in ROE.                                                    in the ROE.
Correct the violations noted in the ROE and adopt          Correct the violations in the ROE and adopt procedures      Not Applicable
procedures that assure compliance with laws and            that assure compliance with laws and regulations.
regulations.
Make provision for loan losses to replenish the ALLL       Make provision for loan losses to replenish the ALLL        Not Applicable
for loans charged off in the2006 ROE and future losses     for loans charged off in the 2007 ROE and future losses
of other loans. Document basis of an appropriate ALLL      of other loans. Document the basis of an appropriate
in the Board minutes.                                      ALLL in the Board minutes.
Review adequacy of the ALLL, provide an adequate           Review adequacy of the ALLL, provide an adequate            Review adequacy of the ALLL, provide for an adequate
allowance, and report such allowance in Call Reports.      allowance, and report such allowance in Call Reports.       ALLL, and accurately report same. Note action taken
Note actions taken in the Board minutes.                   Note actions taken in the Board minutes.                    in the Board minutes.
Adopt a plan to improve liquidity and reduce               Formulate and adopt a plan for improving liquidity and      Cease and desist from operating with inadequate
dependency upon volatile liabilities to fund loans and     reducing dependency upon volatile liabilities to fund       liquidity in light of the bank’s asset and liability mix.
long-term assets.                                          loans and long-term assets.                                 Submit liquidity analysis report and list of uninsured
                                                                                                                       deposits at the end of each week.
Shall not increase total assets by more than 5% during     Shall not increase total assets by more than 2% during      Shall not increase total assets from balance at C&D date
any consecutive 3-month period without an advance 30-      any consecutive 3-month period without an advance           without prior written approval of the FDIC and IDFPR.
day written notice to the FDIC and IDFPR.                  notice to FDIC and IDFPR.
Conduct written review of staffing requirements and        Conduct written review of staffing requirements and         Have and retain qualified management, such as a new
commence hiring or training staff in loan administration   commence hiring or training staff in loan administration    chief executive officer, senior lending officer, and chief
and collection and regulatory and policy compliance.       and collection and hire a chief financial officer.          financial officer, and adequately staff the collections
                                                                                                                       department.




                                                                                       22
                                                                                                                                                  APPENDIX 4

                  MOU APRIL 2007                                      MOU MARCH 2008                                           C&D DECEMBER 2008

Not Applicable                                       Shall not extend credit to any borrower who is already     Shall not extend any additional credit to any borrower
                                                     obligated in any manner to the bank on any extensions      who is already obligated in any manner to the bank on
                                                     of credit that were charged off or classified.             any extensions of credit, especially any borrower whose
                                                                                                                loan or other credit has been classified “Loss,”
                                                                                                                “Substandard,” or “Doubtful” or is listed for Special
                                                                                                                Mention.
Not Applicable                                       Maintain Tier 1 Capital at a level equal to or exceeding   Have and maintain Tier 1 Capital as a percentage of its
                                                     7.5% and Total Risk-based Capital of at least 10% per      total assets at a minimum of 8% per Part 325 of the
                                                     Part 325 of the FDIC Rules and Regulations.                FDIC Rules and Regulations.
Not Applicable                                       Formulate written Capital Contingency Plan that            Adopt a written Contingency Funding Plan acceptable
                                                     includes capital sources. Submit the plan to the FDIC      to the FDIC and IDFPR.
                                                     and IDFPR.
Not Applicable                                       Eliminate from its books all assets classified as “Loss”   Not Applicable
                                                     in the 2007 ROE.
Not Applicable                                       Comply with the FDIC regulation and obtain approval        Notify the FDIC and IDFPR of any changes in any of
                                                     from the FDIC before adding any individual to the          bank’s directors or senior executive officers and obtain
                                                     Board or employing any individual as a senior officer.     these agencies’ approval for addition of officers or
                                                                                                                Board members.
Not Applicable                                       Review compliance with Board policy ratios, note           Not Applicable
                                                     noncompliance in the Board minutes, and develop a
                                                     plan to bring the bank into compliance.
Not Applicable                                       Implement a profit plan.                                   Not Applicable
Not Applicable                                       Not Applicable                                             Increase participation of the Board in the bank’s
                                                                                                                activities.
Provide progress reports each quarter, as to these   Provide progress reports each quarter, as to these         Provide progress reports each quarter, as to these
provisions, to the FDIC and IDFPR.                   provisions, to the FDIC and IDFPR.                         provisions, to the FDIC and IDFPR.




                                                                                 23
                                                                         APPENDIX 5
                ACRONYMS USED IN THE REPORT



Acronym                                Definition
ALLL      Allowance for Loan and Lease Losses
BBR       Bank Board Resolution
C&D       Cease-and-Desist Order
C&I       Commercial and Industrial
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FDIC      Federal Deposit Insurance Corporation
FHLB      Federal Home Loan Bank
GAAP      Generally Accepted Accounting Principles
IDFPR     Illinois Department of Financial and Professional Regulation
LTV       Loan-to-Value
MOU       Memorandum of Understanding
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report




                                    24
